March 29, 2004
Report No. 04-015


Division of Supervision and Consumer Protection’s
Supervisory Appeals Process




             AUDIT REPORT
                       TABLE OF CONTENTS



BACKGROUND……………………………………………………………………………….2

RESULTS OF AUDIT………………………………………………………………….……...3

Supervisory Appeals Procedures Could Be Improved……………………………….……...4

     Recommendation…………………………………………………………………........6

Supervisory Appeals Procedures Were Not Always Followed………………...……..……..6

     Concurrence by the State Banking Authority………………………………....……..6

           Recommendation………………………………………………………………7

     Use of Subsequent Information………………………………………….……………7

           Recommendations……………………………………...……….….……..……8

CORPORATION COMMENTS AND OIG EVALUATION…………………………....….9

APPENDIX I: OBJECTIVE, SCOPE, AND METHODOLOGY………………..…...……10

APPENDIX II: CORPORATION COMMENTS………………………………………......12

APPENDIX III: MANAGEMENT RESPONSE TO RECOMMENDATIONS…………15
BACKGROUND

The DSC Manual of Examination Policies (Examination Manual) encourages contact and
discussions with Bank management throughout the examination process. In addition,
examiners-in-charge (EIC) are required to discuss preliminary examination ratings with senior
management and, when appropriate, with the board of directors as close as possible to the
conclusion of the examination. Moreover, the EIC is required to clearly explain that the ratings
are subject to final approval by the Regional Director, who has the authority to make changes to
preliminary examination ratings.

On March 21, 1995, the FDIC Board of Directors adopted the Guidelines for Appeals of Material
Supervisory Determinations4 (hereafter referred to as Guidelines for Appeals) to establish an
independent intra-agency appellate process for the review of material supervisory
determinations, as required by the Riegle Community Development and Regulatory
Improvement Act of 1994.5 In establishing the appeals process, the FDIC must ensure that:
(1) any appeal of a material supervisory determination by an insured depository institution is
heard and decided expeditiously and (2) appropriate safeguards exist for protecting the appellant
from retaliation by agency examiners.

Under the Guidelines for Appeals, institutions may appeal material supervisory determinations
within 60 days following receipt of the Report of Examination (ROE), provided the institution’s
board of directors has considered the merits of the appeal and has authorized its filing. An
institution may appeal any material supervisory determination, which includes appealing
CAMELS ratings.

If an institution is unable to resolve the dispute with the on-site examiner or regional office, the
institution may file an appeal with the Director, DSC, in Washington. Under the Guidelines for
Appeals, if the material supervisory determination under appeal is the joint product of the FDIC
and a State regulatory authority, the DSC Director will promptly notify the appropriate State
authority of the appeal, provide copies of relevant documents, and solicit that authority’s views
regarding the merits of the appeal before a final decision is made. Once the appeal has been
filed, the regional office has 10 working days to review the institution’s appeal and submit its
comments and recommendations on the appeal to the Director, DSC. The Regional Director may
approve the appeal if the Director finds in favor of an institution; if the appeal is not approved, a
Washington DSC review panel is convened to review the case and prepare a recommendation for
the Director, DSC. The Director, DSC, may approve any recommendation that finds in favor of
an institution; however, if the Director is unable to resolve the appeal in favor of the institution,




4
  The FDIC advised the financial institutions it regulates of the Guidelines for Appeals through Financial Institution
Letter 28-95, Guidelines for Appealing Supervisory Determinations, dated April 4, 1995.
5
  The Act defines the term “independent appellate process'' as a review by an agency official who does not directly
or indirectly report to the agency official who made the material supervisory determination under review. The
Guidelines for Appeals were intended to clarify the types of determinations that are eligible for review and to
establish a process by which appeals would be considered and decided.


                                                        2
the appeal will be forwarded to a Supervisory Appeals Review Committee (SARC) for final
consideration.6

According to a DSC management report entitled Appeals of Material Supervisory
Determinations, dated December 2, 2003, 64 appeals had been filed with the FDIC in the past
9 years. The 64 appeals were related to: CAMELS composite and component ratings;
Community Reinvestment Act7 and Compliance examination ratings;8 apparent regulatory
violations; classified assets; loan allowances; information system and trust examination results;
termination of a cease and desist (C&D) order;9 restatements of Call Report10 items; subprime
designations of credit card portfolios; accounting treatment of accrued interest receivables; and
designations of problem bank status.

The 64 appeals noted above were filed by 54 FDIC-supervised institutions. Of the 64 appeals
filed, 40 related to safety and soundness issues. Of these 40 appeals, 2 appeals are currently in
process. For the remaining 38 appeals:

    •    6 were fully or partially approved by the Director, DSC;
    •    4 were withdrawn by the institution;
    •    4 were fully or partially approved by the SARC; and
    •    24 were denied by the SARC.


RESULTS OF AUDIT

The DSC Regional Office complied with procedures related to upgrading a preliminary
examination component rating. Consistent with those procedures, FDIC and State examiners
held discussions with Bank management regarding its concerns with the preliminary ratings


6
  The SARC consists of the Vice Chairperson; Director, DSC; Director, Division of Insurance and Research;
Ombudsman; and General Counsel (or their designees). On March 10, 2004, the FDIC Board of Directors approved
for publication in the Federal Register a Notice and Opportunity for Comment on proposed revisions to the
Guidelines for Appeals that would change the composition of and the procedures governing the SARC and redefine
the role of the Ombudsman in SARC appeals.
7
  The Community Reinvestment Act (CRA) was enacted as Title VII of the Housing and Community Development
Act of 1977 and applies to all regulated federally insured financial institutions, excluding credit unions. The FDIC
is responsible for evaluating the CRA activities of insured, state-chartered, nonmember financial institutions. CRA
evaluations are used by the FDIC and the public to assess how a bank meets the lending, investment, and service
needs of the community it serves.
8
  Congress, by statute, has assigned the FDIC enforcement responsibilities for various consumer protection, fair
lending, and certain other regulations for financial institutions supervised by the FDIC. The Compliance
examination is the primary means by which the FDIC determines the extent to which a financial institution is
meeting its responsibility to comply with the requirements and prescriptions of the various laws and regulations.
9
  A formal enforcement action issued by FDIC’s Board of Directors to a bank or affiliated party to stop an unsafe or
unsound practice or violation. A C&D may be terminated when the bank’s condition has significantly improved and
the action is no longer needed or the bank has materially complied with its terms.
10
   Call Reports are sworn statements of financial condition that financial institutions submit to the FDIC quarterly in
accordance with federal regulatory requirements in 12 Code of Federal Regulation. The reports consist of a balance
sheet, income statement, and other supplemental information and provide detailed analyses of balances and related
activity.


                                                        3
during the course of the examination. In addition, the Regional Director acted within delegated
authority when changing the preliminary component rating.

With respect to the Bank’s formal appeal of the final examination ratings:

•      The current procedures do not require an independent DSC analysis of examination
       information relevant to an appeals case when critical examination findings are not fully
       supported. Consequently, the FDIC risks making an appeals decision based on incomplete
       information or less than a full understanding of the circumstances of the determination under
       appeal.

•      DSC did not fully coordinate with the State regulatory authority throughout the appeals
       process, even though the examination was conducted jointly. As a result, the FDIC could not
       ensure that the State’s views had been fully documented and considered in the appeals
       process.

•      Both the DSC regional and Washington offices considered information on institution actions
       implemented after the timeframe covered by the examination, which is contrary to FDIC
       policy.

We are recommending that DSC enhance and enforce current appeals procedures for material
supervisory determinations to help ensure that the FDIC appeals process is administered in a fair,
efficient, and effective manner and that fully informed decisions are made that are reflective of
the merits of the case at the time of the supervisory determination.


SUPERVISORY APPEALS PROCEDURES COULD BE IMPROVED

DSC staff reviewing the Bank’s appeal did not obtain and analyze additional information that
may have been relevant in determining the merit of the Bank’s appeal. Current policy requires a
review of a case for consistency with FDIC policies, but does not require the collection and
analysis of additional information such as examination workpapers that may be relevant to
reviewing appeals. Although additional supporting information may not always be required to
substantiate a rating upgrade, without independent analyses DSC risks making decisions on
appeals based on incomplete information or a less than full understanding of the circumstances
surrounding supervisory determinations being appealed.

The DSC Compliance Examination Manual Part V: Other Examination Policies and Procedures -
Appeals Process (dated July 31, 1999) states that the appeal will be reviewed for consistency
with the policies, practices, and mission of the FDIC, the Division of Supervision or the Division
of Compliance and Consumer Affairs;11 and for overall reasonableness and support of the
respective positions advanced, but no other detailed guidance is provided. Further, current
policies for the appeals process are outdated in that they do not reflect the current DSC
organization.


11
     Effective July 1, 2002, these two divisions were merged to form the new DSC.


                                                        4
During our review of the process for the Bank’s appeal of its component ratings and overall
composite rating, we found that the Washington office DSC review panel limited its analysis to
the evidence provided in the regional office’s appeal package, which included the 2002 ROE, the
Bank’s request for appeal, and the regional office recommendation to deny the appeal. Members
of the review panel responsible for determining the merits of the case told us they did not request
additional information or workpapers from the regional or field offices. Most importantly, the
panel members did not conduct additional or independent analyses of the examination
documentation to support their conclusions. In its memorandum recommending approval of the
appeal, the review panel repeatedly noted that the 2002 ROE did not support the assigned
ratings. However, the panel did not independently analyze the work performed by the EIC so
that it could determine what the examination ratings should have been or whether they were
appropriate. As a result of the review conducted by the review panel, the Bank’s appeal was
partially granted and the Bank’s 2002 composite rating was upgraded.

According to discussions with DSC management in Washington, the EIC’s primary criticism
centered on one component of the Bank’s capital. However, the Capital Markets Specialist on
the review panel did not agree with the EIC’s assessment of the potential risk involved in this
area.

We reviewed the 2002 ROE workpapers to determine whether additional information to support
the EIC’s findings existed but had not been used by the review panel members. We focused our
review on the workpapers for the three component ratings the Bank had appealed. In reviewing
the workpapers, the allowance for loan and lease losses (ALLL),12 and the 2002 ROE, we found
information related to the calculation of the Bank’s ALLL that would have provided the review
panel a more comprehensive understanding of the Bank’s deficiencies. Had the review panel
analyzed the examination workpapers, it would have had a more sufficient basis on which to
determine whether the examination ratings were appropriate.

As noted earlier, DSC review panel members concluded that the Bank’s 2002 ROE did not
substantiate the assigned ratings. If that was the case, an independent review of the supporting
workpapers by the review panel should have been conducted to more accurately determine the
condition of the Bank at the time of the examination and to make informed decisions regarding
the Bank’s ratings. Without the information that would be gained from such a review, the review
panel risked lacking adequate justification for upgrading the Bank’s composite rating, or
conversely, denying the Bank’s appeal -- had that been the panel’s conclusion.

The objective of an examination is to help ensure a financial institution’s safety and soundness
and to minimize the degree of risk exposure presented to the banking system and deposit
insurance fund. Enhancing the guidance that requires review panel members to obtain and
independently review information supporting the supervisory determination being appealed
(such as examination workpapers and the EIC’s perspective) will help ensure that review panels
make fully informed decisions on the merits of the case.

12
  Federally insured depository institutions must maintain an ALLL at a level that is adequate to absorb the
estimated credit losses associated with the loan and lease portfolio (including all binding commitments to lend). To
the extent not provided for in a separate liability account, the ALLL should also be sufficient to absorb estimated
credit losses associated with off-balance sheet credit instruments such as standby letters of credit.


                                                       5
Recommendation

We recommend that the Director, DSC:

1. Establish DSC policy for reviewing appeals of material supervisory determinations to include
   guidance regarding the type and extent of documentation needed for conducting independent
   analyses of the merits of an appeals case. Such guidance should specify the circumstances
   under which examination workpapers should be obtained and discussions held with the EIC.


SUPERVISORY APPEALS PROCEDURES WERE NOT ALWAYS FOLLOWED

Concurrence by the State Banking Authority

DSC Washington staff could have more fully coordinated with the State regulatory authority
regarding the decision to grant the Bank’s appeal. For example, rather than contacting the State
directly, the Washington office obtained oral comments from the regional office pertaining to the
State’s concurrence in granting the Bank’s appeal. As a result, DSC did not have a complete
record of the merits of the case and did not ensure that the State’s position was fully documented
and considered when DSC was preparing the final appeal recommendation.

The FDIC Intra-Agency Appellate Process (61 F.R. 7042, published March 28, 1995)
specifically addresses coordination with State regulatory authorities as follows:

       In the event that a material supervisory determination under appeal is the joint product of
       the FDIC and a State regulatory authority, the appropriate Division Director will
       promptly notify the appropriate State regulatory authority of the appeal, provide to the
       regulatory authority a copy of the institution's request for review and any other related
       materials, and solicit the regulatory authority's views regarding the merits of the appeal
       before making a final decision. That Director will present the views of the regulatory
       authority (as well as his or her own views) before the Supervisory Appeals Review
       Committee and attempt to reconcile the views of the regulatory authority with the views
       of the Supervisory Appeals Review Committee. The Supervisory Appeals Review
       Committee will notify the institution and the State regulatory authority of its decision,
       and any differences remaining between the institution and the State authority will be left
       to those parties to resolve.

This policy underscores the importance of obtaining the State regulatory authority’s position on
all appeals related to a joint product with FDIC and requires that when the State and the FDIC
disagree, the case should be elevated to the SARC for reconciliation.

The Washington office review panel’s recommendation for granting the appeal contains a section
entitled Position of the Other Regulatory Agency, which notes that the State regulatory authority
was contacted. The section specifically states that the regional office discussed the possibility of
granting the appeal, or portions of the appeal, with the State and that the State indicated it would
support any final Washington office material supervisory determinations. However, our review


                                               6
of regional office correspondence identified a letter from the State Commissioner to the DSC
Regional Director regarding the appeal of the joint examination findings. In this letter, the
Commissioner stated that after careful review of the ROE and the Bank’s response to the report,
he believed that the report accurately reflected the condition of the Bank at the time of the
examination and that the examination findings and assigned CAMELS ratings were appropriate.

The Director, DSC, notified the Bank in writing that DSC had granted the appeal of two
component ratings and acknowledged the Bank’s withdrawal of the appeal of the third
component rating. The Bank was also informed that its overall composite rating would be
upgraded. Although the State provided a written response supporting the regional office
recommendation to deny the appeal, there was no written documentation from the State to
support any subsequent concurrence with the Washington office decision to grant the appeal.

State officials stated they were not contacted by the DSC Washington staff regarding the appeal
of the Bank’s final examination ratings. Instead, the Regional Director called to inform State
officials that the Washington office had overturned the ratings. Although the State did not agree
with the results of the appeal, the State sent a letter to the Bank informing it that the State would
accept the results of the FDIC’s review of the Bank’s appeal. During discussions with State
officials, we were informed that the State’s only alternative would have been to pull out of the
examination and perform an independent examination. Also, the State did not contest the results
of the appeal because the Bank’s earnings had started to improve, and State officials believed
they had accomplished what they wanted -- to prompt the Bank to initiate corrective actions. In
addition, at the time the FDIC granted the appeal, the State had also planned to conduct a
6-month visitation to the Bank. However, the State was asked by the FDIC not to conduct the
visitation at that time.

Without strict adherence to the procedures regarding coordination with State regulatory
authorities, the FDIC cannot ensure the fairness, efficiency, and effectiveness of the appeals
process. Also, lacking written documentation from the State regulatory authority regarding its
position, DSC will not have a complete record of the merits of the case and would not be able to
substantiate the State’s views regarding an appeal.

Recommendation

We recommend that the Director, DSC:

(2) Reiterate, in written guidance that enforces the FDIC’s Intra-Agency Appellate Process, the
    importance of coordinating and communicating with State regulatory authorities throughout
    the appeals process, and prior to making appeal decisions, obtain the written views of State
    regulatory authorities to have a complete record of the disposition of appeals.


Use of Subsequent Information

While conducting its review of the appeal, the Washington office considered information on
institution actions implemented after the examination which is contrary to FDIC policy. The



                                                7
Bank had included the subsequent information in its materials presented to the review panel. As
a result, information not available during the examination was used in preparing the appeal
recommendations and in deciding the merits of the case.

According to the FDIC’s Intra-Agency Appellate Process, the scope of the review for any
material supervisory determination is limited to the facts and circumstances as they existed prior
to or at the time the material supervisory determination was made. No consideration is to be
given to any facts or circumstances that occur or corrective action taken after the determination
was made. However, the FDIC will consider facts that may have been discovered by or come to
the attention of the FDIC or the institution after the determination.

The FDIC’s Intra-Agency Appellate Process does not provide sufficient guidance or procedures
regarding the specific information to be submitted by a bank to support its request for an appeal.
The policy states that to initiate an appeal, the institution must submit, in writing, to the Director
of the Division of Supervision, a request for review and that:

       The request for review should include: (a) a detailed description of the issues in dispute, the
       surrounding circumstances, the institution's position regarding the dispute and any arguments to
       support that position, . . . how resolution of the dispute would impact the institution and why such
       impact would be material, and the good faith effort to resolve the dispute with the on-site
       examiner and the Regional Office and the results of that effort; and (b) a statement that the
       institution's board of directors has considered the merits of the appeal and authorized that it be
       filed.

We found one instance where information provided after the examination “As of Date” was
considered by the review panel members. In a letter to the regional office, the Bank
acknowledged receipt of the final ROE and expressed its dissatisfaction with the examination
ratings. In addition, the Bank included information on planned corrective actions, and on data
related to a capital infusion. Although the capital infusion was made subsequent to the close of
the examination, the DSC Washington office recommendation included this data as part of its
support for upgrading a component rating. The Bank also provided future projections of income
to support its appeal case, but this information was not included in the Washington office
recommendation.

Making appeal decisions based on information or events subsequent to the examination
timeframe is contrary to FDIC policy and could result in decisions that are not reflective of the
merits of the case at the time of the examination. In addition, institutions could introduce or
present information or arguments that were not available to the examination team and, as a
result, were not factored into the EIC’s assessment of the institution.

Recommendations

We recommend that the Director, DSC:

(3) Reiterate, in written guidance to DSC, the FDIC’s Intra-Agency Appellate Process policy
    requiring that review of appeals be limited to the facts and conditions prior to or at the time
    the material supervisory determination is made.


                                                  8
(4) Clarify, in written guidance to FDIC-regulated institutions, the FDIC’s Intra-Agency
    Appellate Process requirement that information submitted in conjunction with appeals is to
    be limited to the facts and conditions prior to or at the time the material supervisory
    determination is made.


CORPORATION COMMENTS AND OIG EVALUATION

On March 23, 2004, the DSC Director provided a written response to the draft report. The response
is presented in Appendix II to this report. DSC generally concurred with the report’s findings and
agreed to take actions regarding the report’s recommendations. In addition to responding to the
recommendations, the Director provided comments on certain aspects of the report pertaining to our
assertion that additional guidance is needed to ensure that information submitted in conjunction with
appeals is limited to the facts and conditions prior to or at the time the material supervisory
determination was made. DSC did not believe that post-examination information played a
measurable role in the panel’s assessment of the specific appeal reviewed by the OIG. The Director
further stated that as a standard practice, DSC reviews only the facts and conditions prior to or at the
time of the material supervisory determination. Nevertheless, the Director indicated that the
proposed update of the guidance to examiners in this area, in the form of a Regional Directors
Memorandum, will address each of the OIG’s concerns and will be made available to institutions on
the external FDIC Website.

DSC’s response to the draft report meets the intent of the recommendations. Accordingly, the
recommendations are resolved but will remain undispositioned and open until we have determined
that agreed-to corrective action has been implemented and is effective.

On March 2, 2003, we provided the State Commissioner the draft report for review and
comments. On March 26, the Commissioner’s office responded that special consideration had
been given to all areas of the report related to the joint examination experience and the State’s
participation with regional office personnel during the appeals process. The Commissioner’s
office had no objection to any of the comments in the report and was satisfied that it presented
the facts of the situation. The Commissioner’s office also noted that it appreciated the close
working relationship it enjoyed with DSC’s regional office during the difficult period of this
examination and appeal.




                                                 9
                                                                                   APPENDIX I


                      OBJECTIVE, SCOPE, AND METHODOLOGY

The overall objective of our audit was to determine whether the DSC followed appropriate
procedures in upgrading the Bank’s ratings and in processing the Bank’s appeal. We
subsequently expanded the scope to include determining whether the controls in the supervisory
appeals process were adequate. The audit work was conducted from September 2003 through
January 2004 in accordance with generally accepted government auditing standards.

To accomplish our objective we:

   •   reviewed policies, procedures, laws, and regulations related to rating upgrades and
       appeals of material supervisory determinations;

   •   reviewed DSC management and tracking reports for appeals;

   •   reviewed DSC headquarters, regional office files, and field office workpapers for the
       Bank’s 2002 examination;

   •   interviewed DSC headquarters and regional office staff involved in the preliminary
       component rating upgrade and the Bank’s supervisory appeal, the FDIC Ombudsman,
       and the FDIC Deputy to the Chairman; and

   •   visited the State financial regulatory authority’s headquarters to interview the
       Commissioner and staff involved in the Bank’s 2002 joint examination and to review
       their workpapers and supervisory files for the Bank.

We also reviewed FDIC criteria related to the processing of rating changes and appeals of
material supervisory determinations, which can be found in various FDIC financial institution
letters and Regional Director Memorandums, the DSC Manual of Examination Policies,
Compliance Examination Manual, and the Case Manager Procedures Manual:

   •   Section 309(a) of the Riegle Community Development and Regulatory Improvement Act
       of 1994 requires the FDIC (as well as the other federal banking agencies and the National
       Credit Union Administration Board) to establish an independent intra-agency appellate
       process to review material supervisory determinations.

   •   FDIC’s Intra-Agency Appellate Process (61 F.R. 7042, published March 28, 1995)
       implements Section 309(a) of the Riegle Community Development and Regulatory
       Improvement Act of 1994, requiring the FDIC to implement an appellate process for
       review of material supervisory determinations. The policy includes the Guidelines for
       Appeals of Material Supervisory Determinations.

   •   Financial Institution Letter No. 28-95: Guidelines for Appealing Supervisory
       Determinations (dated April 4, 1995) provides banks with the guidance and requirements
       for filing appeals of material supervisory determinations.




                                             10
                                                                                      APPENDIX I

   •   Regional Director Memorandum 95-056: Procedures for Processing Appeals of Material
       Supervisory Determinations (dated May 15, 1995) establishes policy and procedures for
       meeting the obligations under the FDIC’s appeals process. The memorandum states that,
       “since it is difficult at this point to anticipate the nature and volume of appeals that might
       be filed and the timeframes involved at each stage of processing, the following are
       established as interim procedures for processing appeals filed in the Washington office
       with the Director of the Division of Supervision.”

   •   DSC Case Manager Procedures Manual, Part I Section 7: Appeals, contains case
       managers’ instructions for processing appeals. In addition, Part I Section 3.3: Problem
       Bank and Rating Change Memorandum, contains criteria for processing examination
       rating changes.

   •   Filing Appeals with the FDIC is a brochure prepared by the FDIC Office of Ombudsman.
       The brochure, updated February 1, 2002, describes the FDIC appeals process for material
       supervisory determinations and provides the steps, timeframes, and procedures associated
       with a formal appeal to the FDIC.


Government Performance and Results Act, Reliance on Computer-Generated Data, Fraud
and Illegal Acts, and Management Controls

The limited nature of the audit objective did not require reviewing related performance measures
under the Government Performance and Results Act or determining the reliability of computer-
processed data obtained from the FDIC's computerized systems. Not performing assessments of
these areas did not affect the results of our audit. In addition to reviewing the allegation
associated with the appeals process, our audit included steps for providing reasonable assurance
of detecting fraud and illegal acts. Additionally, we gained an understanding of relevant control
activities by examining DSC-applicable policies and procedures as presented in the DSC Manual
of Examination Policies and Regional Director Memoranda. Our testing of internal controls was
limited to reviews of compliance with applicable laws, regulation, policies, and procedures.


Pertinent Laws and Regulations

Section 309(a) of the Riegle Community Development and Regulatory Improvement Act of 1994
requires the FDIC (as well as the other Federal banking agencies and the National Credit Union
Administration Board) to establish an independent intra-agency appellate process to review
material supervisory determinations. Guidance on the FDIC’s intra-agency appellate process
was published on March 28, 1995. We did not find any instances in which the FDIC was not in
compliance with pertinent laws and regulations.




                                               11
                       APPENDIX II
CORPORATION COMMENTS




        12
                       APPENDIX II
CORPORATION COMMENTS




        13
                       APPENDIX II
CORPORATION COMMENTS




        14
                                                                                                                                        APPENDIX III

                                             MANAGEMENT RESPONSE TO RECOMMENDATIONS

This table presents the management responses that have been made on recommendations in our report and the status of recommendations as of
the date of report issuance. The information in this table is based on management’s response to our report (and subsequent communication
with management representatives.)


                                                                                                                                           Open
 Rec.                 Corrective Action: Taken Or                   Expected          Monetary       Resolved:a     Dispositioned:b
                                                                                                                                            or
Number                      Planned/Status                       Completion Date      Benefits       Yes or No        Yes or No
                                                                                                                                          Closedc
      1       DSC will update procedures to reflect             December 31, 2004     N/A           Yes                   No               Open
              current practices and reemphasize the need
              to obtain sufficient information to make an
              informed assessment of an appeal.
      2       DSC will update procedures related to             December 31, 2004     N/A           Yes                   No               Open
              contact with the State regulatory
              authorities.
      3       DSC will update procedures related to            December 31, 2004      N/A           Yes                   No               Open
              limiting use of information subsequent to
              the supervisory determination.
      4       DSC will clarify requirements to banks            December 31, 2004     N/A           Yes                   No               Open
              related to data submitted in appeals
              requests.
a
    Resolved – (1) Management concurs with the recommendation and the planned corrective action is consistent with the recommendation.
               (2) Management does not concur with the recommendation but planned alternative action is acceptable to the OIG.
               (3) Management agrees to the OIG monetary benefits or a different amount, or no ($0) amount. Monetary benefits are considered resolved as
                   long as management provides an amount.
b
 Dispositioned – The agreed-upon corrective action must be implemented, determined to be effective, and the actual amounts of monetary benefits achieved
through implementation identified. The OIG is responsible for determining whether the documentation provided by management is adequate to disposition
the recommendation.
c
    Once the OIG dispositions the recommendation, it can then be closed.



                                                                           15
                                         APPENDIX III

MANAGEMENT RESPONSE TO RECOMMENDATIONS




                 16
